fal

C@QCKLE

; E-Mail Address:
a ief
Le 8 l Br s contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-1061

DR. REDDY’S LABORATORIES, LTD., ET AL.,
Petitioners,

Vv.
ELI LILLY AND COMPANY,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 26th day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the. BRIEF OF AMERICA’S HEALTH INSURANCE PLANS AS
AMICUS CURIAE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:
JULIE SIMON MILLER ANNA-ROSE MATHIESON
MICHAEL S. SPECTOR Counsel of Record
AMERICA’S HEALTH KATY GRAHAM
INSURANCE PLANS CALIFORNIA APPELLATE,
601 Pennsylvania Ave., NW LAW GROUP LLP
Washington, DC 20004 96 Jessie Street
San Francisco, CA 94105
(415) 649-6700
annarose@calapplaw.com
Counsel for Amicus AHIP

Subscribed and sworn to before me this 26th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023 -
= Notary Public / Affiant 39593

 

‘(= TARY Stats of Hebaska Dd,
RENEE J. GOSS Q. Sean Ke. Chk,

 
SERVICE List

John Caviness O’Quinn
Kirkland & Ellis LLP
1300 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5191
john.oquinn@kirkland.com
Counsel for Petitioners Dr. Reddy's Laboratories, Ltd., et al.

Adam Lawrence Perlman
Latham& Watkins LLP
555 Eleventh Street NW, Suite 1000
Washington, DC 20004
(202) 637-2200
adam.perlman@lw.com
Counsel for Respondent Eli Lilly and Company
